No.________________
IN THE SUPREME COURT OF THE UNITED STATES
CHARLES SENKE,
PETITIONER,
- VS. UNITED STATES OF AMERICA,
RESPONDENT.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Title 18, United States Code § 3006A(d)(6), Petitioner Charles Senke asks
leave to file the accompanying Petition for Writ of Certiorari to the United States Court of
Appeals for the Third Circuit without prepayment of fees or costs and to proceed in forma
pauperis.
Petitioner was represented by counsel appointed pursuant to Title 18, United States Code
§ 3006A in the Third Circuit Court of Appeals.
Respectfully submitted,
/s/ Robert Epstein
ROBERT EPSTEIN
Assistant Federal Defender
Counsel of Record
BRETT G. SWEITZER
Assistant Federal Defender
Chief of Appeals
LEIGH M. SKIPPER
Chief Federal Defender

FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
Suite 540 West – The Curtis
601 Walnut Street
Philadelphia, PA 19106
(215) 928-1100
Counsel for Petitioner

